GR-40-98-024
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grant to the City of Dunedin, Florida, Police Department
Grant No. 95-DM-BX-0241
 
GR-40-98-024
 
September 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the city of Dunedin, Florida, Police Department (grantee).
The grantee received a $564,969 grant to hire or rehire eight additional sworn officers
under the Phase I program. The purpose of the additional officers is to enhance community
policing efforts.

In brief, our audit determined the grantee:



Claimed $15,206 in salaries and fringe benefits not authorized by the Office of Justice
      Programs (OJP). 




Claimed $49,554 in salaries and fringe benefits for officers before they were hired to
      replace experienced officers redeployed to community policing. 




Submitted some monitoring reports to COPS and OJP late, and incorrectly reported to OJP
      total program outlays and the Federal share of outlays. 


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our scope and methodology appear in Appendix II.
#####